HHS/OIG, Audit -"Audit of Texas Physician Medicare Claims for Care Plan Oversight Services in
Excess of $150 Paid During the 2-Year Period Ended December 31, 2002,"(A-06-04-00083)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Texas Physician Medicare Claims for Care Plan
Oversight Services in Excess of $150 Paid During the 2-Year Period Ended December 31, 2002," (A-06-04-00083)
June 29, 2005
Complete
Text of Report is available in PDF format (287 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of the OIGs review of amounts paid to two Texas physicians, who
were reimbursed more than $150 per claim for care plan oversight (CPO) services provided during the
2-year period ended December 31, 2002.  Our audit objective was to determine if the amounts paid
for CPO services met Medicare reimbursement requirements.  Two Texas physicians billed and were
improperly paid $15,897 for 236 CPO services on 9 CPO claims.  None of the 236 services met Medicare
reimbursement requirements because the physicians (1) did not provide 230 of the services and (2) did
not have supporting documentation for the remaining 6 services.  In addition, when TrailBlazer,
the Medicare carrier for the State of Texas, paid these CPO claims, it did not have claim-processing
system edits in place to ensure that only one service was billed on each claim.  Since then, TrailBlazer
has implemented such edits to reduce two or more billed CPO services to one service on each claim.  After
these edits were in place, we did not identify any additional overpayments for excessive CPO services
during our audit period.
We recommended that TrailBlazer (1) recover the $15,897 of overpayments made to the two physicians
for physician CPO services improperly billed to Medicare; (2) review physician CPO service claims paid
after our audit period to ensure that its claim-processing system edits have continued to prevent improper
payments for excessive CPO services; and (3) continue its efforts to provide physicians with education
covering Medicares requirements for billing and documenting CPO services.  TrailBlazer agreed
with our findings and recommendations.